CERTIFICATE OF SERVICE
NO. TBD
State of Oklahoma
Petitioner,
v.
Michael Eugene Spears
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the STATE
OKLAHOMA V. SPEARS PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct
copies of the same by USPS Priority Mail, prepaid for delivery to the following address.
OF

James H. Lockard
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
(405) 801-2601
james.lockard@oids.ok.gov
Counsel for Michael Eugene Spears

Lucas DeDeus

August 27, 2021

SCP Tracking: Mansinghani-Office of the Oklahoma Attorney General-Cover White

